INS-O-01-01




  INSPECTION                     INSPECTION OF
    REPORT                      LAWRENCE LIVERMORE
                               NATIONAL LABORATORY
                               CREDIT CARD USAGE AND
                               PROPERTY MANAGEMENT
                                     CONCERNS




  U.S. DEPARTMENT OF ENERGY        FEBRUARY 2001
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                                 Department of Energy
                                     Washington, DC 20585


                                       February 20, 2001


MEMORANDUM FOR THE MANAGER, OAKLAND OPERATIONS OFFICE

FROM:          Sandra L. Schneider /s/ John Vande Sand for
               Assistant Inspector General for Inspections
               Office of Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Lawrence Livermore National
               Laboratory Credit Card Usage and Property Management Concerns”
               (INS-O-01-01)

BACKGROUND

The Lawrence Livermore National Laboratory (Livermore) conducts Federally-funded research
and development in support of national defense programs and other areas of scientific inquiry in
the national interest. To facilitate accomplishment of this work, Livermore spent about
$66 million in over 70,000 transactions in Fiscal Year 1999, for the purchase of supplies or
services made via credit cards. Recognizing that credit card procurements represent a significant
procurement method, the Office of Inspector General included Livermore’s credit card
procurement program as an area of interest regarding contract administration controls in the
Fiscal Year 2000 Inspector General Annual Performance Plan.

RESULTS OF INSPECTION

Our review of nearly 13,000 credit card transactions made during Fiscal Year 1999 revealed that
the vast majority of items purchased were for allowable goods or services that were procured in
accordance with established procedures. However, our inspection found some weaknesses in the
implementation of the Livermore credit card procurement program, and areas where
improvements could be made both in the credit card and property management process.

Specifically, we found that in accordance with the Department of Energy Property Management
Regulations, the DOE Oakland Operations Office has authorized Livermore to develop a list of
personal property items which are considered to be sensitive, subjecting these items to property
numbering requirements for control purposes. However, we found that this list could be more
inclusive with regard to items frequently procured with credit cards. Current Livermore policy
does not identify as sensitive nor require property number tracking for items such as
microscopes, oscilloscopes and videocassette recorders. We also found that some credit card
users in 8 out of 10 Livermore Directorates included in this inspection, were not identifying
personal property items purchased with credit cards as U.S. Government property as required by
contract. This could lead to confusion regarding property ownership, especially considering
Livermore’s Work For Others Programs and partnerships with private industry.
                                                 2

Additionally, it would be more difficult for security personnel to readily identify U.S.
Government property in the event such property was improperly removed from the Laboratory
premises. As a result, we conclude that Livermore’s Fiscal Year 1999 property management
self-assessment rating of “outstanding” needs to be reevaluated.

In addition, we found that an office equipment vendor manipulated General Services
Administration (GSA) contract pricing near the end of Fiscal Year 1999 to expedite equipment
sales. This had the effect of circumventing Livermore’s credit card policy limiting the use of the
credit card to $5,000 per item. Specifically, in four instances the vendor adjusted the pricing for
a copier and a document feeder to allow the individual transactions to fall under the $5,000
limitation, while maintaining the same total sales price. We also found that a Livermore
employee used a credit card to pay for over $200,000 in training expenses to a single vendor in
Fiscal Year 1999, having the effect of a sole source procurement and, in some instances, split
orders. Additionally, we found that Livermore employees have used credit cards to procure
many similar items such as computer monitors and tape back-up units from a variety of different
sources that could have been competitively procured in a larger volume from fewer sources and
at potentially lower cost. Since Livermore does not have a process in place to review credit card
purchase histories, opportunities to reduce the cost to the Government through quantity discounts
have not been evaluated.

We made several recommendations to address the issues identified in Livermore’s credit card
and property management processes. Specifically, we recommended that Livermore reevaluate
the “Attractive” item policy, and consider adding other items to the “Attractive Property” listing.
We recommended that Livermore ensure that all non-exempted personal property procured with
Government funds be identified as Government property, and that controls over end-of-fiscal-
year acquisitions using credit cards be improved. In addition, we recommended that Livermore
review the use of credit card procurements for training, and establish procedures to encourage
competition for training services. We also recommended that Livermore evaluate the potential
for establishing a program where credit card procurement histories are analyzed in order to
forecast the need for common and frequently purchased items so that competitive procurement
actions for such items can take advantage of quantity discounts.

MANAGEMENT REACTION

Management agreed that improved identification of Government property purchased with credit
cards is needed, that increased transaction reviews for end-of-fiscal-year credit card
procurements will be performed, and that opportunities for competitively procuring future
training will be sought. Management did not agree that the sensitive property list needed to be
expanded, that credit cards procurement histories needed to be evaluated to forecast commonly
purchased items for acquisition under competitive procurements and inclusion as shelf stock, or
that Livermore’s Fiscal Year 1999 property management self-assessment analysis should be
reevaluated.

Attachment
cc: Under Secretary for Nuclear Security
     and Administrator, National Nuclear Security Administration
    Acting Director, Office of Management and Administration
    Leader, Audit Liaison Team, CR-2
INSPECTION OF LAWRENCE LIVERMORE NATIONAL
LABORATORY CREDIT CARD USAGE AND PROPERTY
MANAGEMENT CONCERNS

TABLE OF
CONTENTS

              Overview ……………………………………………………                     1

              Introduction and Objectives………..………………………         1

              Observations and Conclusions……………………………           3

              Details of Findings………………………………………..              5

              DOE Property Management Regulations
              Implementation……………………………………………..                 5

              DOE Property Management Regulations
              and DOE Management and Operating
              Contract Property Marking Requirements
              Are Not Consistently Implemented……………………….        7

              Vendor Price Manipulation………………………………..           9

              Credit Card Payments for Training…………………….… 11

              Sole Source Procurement of Training…………………… 11

              Some Training Payments Could be Split Orders………. 12

              Acquisition Planning Opportunities……………………… 12

              Livermore Annual Performance Appraisal……………… 14


              Appendix

              A. Scope and Methodology……………………………… 17
Overview
INTRODUCTION                      The Lawrence Livermore National Laboratory (Livermore) is
AND OBJECTIVES                    managed by the Regents of the University of California for the
                                  Department of Energy, and as such, conducts Federally-funded
                                  research and development in support of national defense programs
                                  and other areas of scientific inquiry in the national interest.
                                  Livermore’s Fiscal Year 1999 net cost of operations was $822.4
                                  million. Approximately $66 million, or 8 percent, of this amount
                                  was spent for the purchase of supplies and services made by
                                  Livermore Technical Release Representatives (TRRs) via credit
                                  card procurement transactions.

                                  Technical Release Representatives are granted authority from the
                                  Livermore Procurement and Material Department to issue
                                  “releases”1 against existing Blanket Purchase Agreements
                                  (BPAs), 2 and to use Livermore credit cards to transact purchases
                                  for the programs they support. Since inception of the credit card
                                  program at Livermore in 1994, the use of credit card acquisitions
                                  has become increasingly more important as a procurement vehicle.
                                  As detailed in Figures 1 and 2, the number of transactions and
                                  dollars spent has nearly tripled since Fiscal Year 1996.

                                  Recognizing that a significant new procurement program was
                                  created at Livermore, the Office of Inspector General included
                                  Livermore’s credit card procurement program as an area of interest
                                  regarding contract administration controls in the Fiscal Year 2000
                                  Inspector General Annual Performance Plan.

                                                                   Livermore Credit Card Transactions

                                                          80,000
                                                          70,000
                                                          60,000
                                           Transactions




                                                          50,000
                                                          40,000
                                                          30,000
                                                          20,000
                                                          10,000
                                                              0
                                                                      1996      1997      1998          1999
                                                                                 FIGURE 1
1
 “Releases” are contractual obligations created by a TRR when acquiring materials or supplies pursuant to a BPA.
2
 Blanket Purchase Agreements are agreements between Livermore and a supplier of services or materials, the cost
of which has been previously negotiated by the Livermore Procurement and Material Department.


Page 1                                                                           Introduction and Objectives
                          Livermore Credit Card Dollar Volume
                                       (millions)

                         70
                         60
                         50




               Dollars
                         40
                         30
                         20
                         10
                          0
                              1996      1997        1998        1999

                                           FIGURE 2


         According to a Livermore procurement official, Livermore’s TRRs
         are authorized procurement authority as a more efficient,
         decentralized alternative to the existing system of centralized
         buyers who process large quantities of requisitions. Initially, 25
         TRRs were allowed to make procurement card purchases, and were
         limited to $500 per transaction. However, this system has
         expanded to about 300 TRRs that are dispersed throughout the
         Laboratory. Livermore TRRs are now authorized by Laboratory
         management to spend up to $5,000 per item, or $10,000 for
         purchase of a service or commodity, but no more than $10,000 per
         transaction. If the items are the subject of a BPA, there is a
         $25,000 limit per transaction. Purchases that exceed these limits
         must be made by a more lengthy centralized requisition process.

         Livermore credit card purchases are made for a wide variety of
         consumable materials such as office and janitorial supplies,
         biological specimens, petroleum products, and chemicals. They
         can also be used to procure non-consumable items such as
         laboratory equipment, tools, hardware, and office equipment. We
         note that Livermore’s TRR Policy Manual states that “attractive”
         items (highly portable property that is easily converted to personal
         use, is susceptible to theft and has an acquisition cost greater than
         $300) and controlled equipment (items which have a purchase or
         fabrication cost greater than $5,000 that justifies maintaining
         records on it) cannot be purchased with Livermore credit cards.
         Additionally, Livermore has established a “controlled
         items/services list” which details several commodities such as




Page 2                                         Introduction and Objectives
                  hazardous chemicals, cameras, and computer printers (over $300 in
                  cost) that require a waiver to be purchased with a credit card.

                  Our inspection objectives were to determine if: (1) Livermore
                  officials established appropriate management controls to
                  implement the credit card system, by ensuring that only reasonable
                  and allowable costs are incurred and charged to the Letter of Credit
                  accounts; (2) credit card transactions followed Livermore’s
                  established management controls; and (3) appropriate property
                  management practices are in place for Government property
                  procured with credit cards.


OBSERVATIONS      Our review of nearly 13,000 credit card transactions made during
AND CONCLUSIONS   Fiscal Year 1999 revealed that the vast majority of items purchased
                  were for allowable goods or services that were procured in
                  accordance with established procedures. However, our inspection
                  found some weaknesses in the implementation of the Livermore
                  credit card procurement program, and areas where improvements
                  could be made. Specifically, we found that:

                  •   In accordance with the DOE Property Management
                      Regulations, the DOE Oakland Operations Office has
                      authorized Livermore to develop a list of personal property
                      considered to be sensitive, requiring property number tracking
                      for control purposes. In developing this list, DOE
                      Oakland/Livermore must consider item value, cost of
                      administration, need for control, and other factors that
                      management determines should apply. However, current
                      Livermore policy does not require property number tracking
                      for potentially sensitive items such as microscopes,
                      oscilloscopes, and videocassette recorders.

                  •   Livermore TRRs use credit cards for the purchase of items
                      such as office and laboratory equipment that, because of cost or
                      lack of susceptibility to pilferage, are not subject to property
                      number tracking requirements. However, when these items are
                      received, Livermore TRRs are required to identify such items
                      as U.S. Government property. Some TRRs in 8 of 10
                      Livermore Directorates included in this inspection were not
                      observing this property management requirement, and were not
                      identifying such items as U.S. Government property.

                  •   An office equipment vendor manipulated General Services
                      Administration (GSA) contract pricing to circumvent
                      Livermore’s credit card cost limitation policies. Livermore’s


Page 3                                            Observations and Conclusions
             own credit card program, established at the request of the
             Oakland Operations Office, generally limits TRRs to $5,000
             per item for credit card purchases. However, in three
             instances, the vendor adjusted the pricing for a copier and a
             document feeder to allow the individual transactions to fall
             under the $5,000 limitation, while maintaining the same total
             sales price. Specifically, the GSA contract price for the type of
             copier purchased was $6,231.00, but the vendor adjusted the
             price of the copier down to $4,981.00. In order to compensate
             for the reduction in the pricing for the copier, the vendor
             adjusted the price for a document feeder from the $1,338.00
             GSA contract price to an increased price of $2,588.00. In a
             related instance, a similar condition was also found with a less
             expensive copier.

         •   Livermore credit cards were used to pay over $200,000 in
             training expenses to a single vendor in Fiscal Year 1999,
             having the effect of a sole source procurement and, in some
             instances, split orders were used.

         •   Livermore TRRs have used credit cards to procure numerous
             common items such as computer monitors and tape back-up
             units under many small quantity purchases from a variety of
             different vendors. The analysis of credit card purchasing
             histories to identify commonly and frequently purchased items
             may be advantageous in securing better prices through quantity
             discounts under competitive procurements.

         •   Livermore’s Fiscal Year 1999 “Property Management” self-
             assessment analysis resulted in an “outstanding” rating.
             However, the results of this self-assessment analysis may be
             overstated based on the findings addressed in this report.




Page 4                                   Observations and Conclusions
Details of Findings

DOE Property          The Livermore Technical Release Representative Policy Manual
Management            defines which items are required to be assigned a property
Regulations           number for control purposes. Currently, Livermore’s policy does
Implementation        not require property number tracking for some potentially
                      pilferable items, such as microscopes, oscilloscopes, and
                      videocassette recorders.

                      The Department of Energy Property Management Regulations
                      state that “sensitive” items are those items of personal property
                      which are considered to be susceptible to being appropriated for
                      personal use or which can be readily converted to cash, and must
                      be numbered for control purposes. Examples of sensitive items
                      include: firearms, portable photographic equipment, binoculars,
                      portable tape recorders, portable calculators, portable power tools,
                      portable computers, and portable communications equipment.
                      Clause 6.12, “Property,” of the DOE Management and Operating
                      Contract with the Regents of the University of California, states
                      that Livermore’s property management system shall be maintained
                      and administered in accordance with applicable Federal and
                      Department of Energy Property Management Regulations.

                      The Livermore Technical Release Policy Manual states that
                      “Attractive Property” items (also called sensitive items) are
                      property items that have not exceeded their service life, are highly
                      portable, are easily converted to personal use, are more susceptible
                      to theft than other Laboratory property, and have an acquisition
                      cost of $300 or more. Livermore requires that “Attractive
                      Property” items be identified with property numbers for
                      accountability purposes. The DOE Property Management
                      Regulations prescribes that “a list of personal property considered
                      to be sensitive shall be developed and maintained by each DOE
                      activity/site, taking into consideration value, cost of administration,
                      need for control, and other factors that management determines
                      should apply.”

                      Livermore has established an “Attractive Item Committee” which
                      reviews the “Attractive Property” item listing annually, and uses a
                      risk-based process for developing and maintaining the site-specific
                      list of personal property considered to be attractive. The
                      Livermore Attractive Item Committee has defined “Attractive
                      Property” by categories such as computer workstations, personal
                      computers, firearms, computer printers, repositories (security
                      containers), cameras (certain technical application cameras are
                      excluded), two way radios, and video cameras. Items that do not
                      fall into one of these categories are not considered to be
                      “Attractive Property” by Livermore.



Page 5                                                                Details of Findings
______________________________________________________________________________


                        However, we found that some items which might be considered
                        sensitive (attractive) have been procured using Livermore credit
                        cards, and that such items have not been identified with property
                        numbers for accountability purposes. These items include two
                        oscilloscopes ($1,795 and $1,295), two microscopes ($4,780 each),
                        three videocassette recorders ($3,141 each), two fax machines
                        ($1,785 and $1,985), and a computer scanner ($2,005), among
                        other equipment. We were told by Livermore TRRs that this
                        situation has occurred due to the fact that the Livermore Technical
                        Release Policy Manual narrowly defines what property is classified
                        as “attractive.”

                        We conclude that the listing developed by the Livermore
                        “Attractive Item Committee” could be more inclusive.
                        Considering the fact that many items procured with Livermore
                        credit cards are highly portable, are easily converted to personal
                        use, are susceptible to theft and have an acquisition cost of $300 or
                        more, we conclude that the “Attractive Property” listing needs to
                        be reevaluated. In this regard, we conclude that consideration
                        needs to be given to adding items such as oscilloscopes,
                        microscopes, videocassette recorders, fax machines, and computer
                        scanners to the “Attractive Property” listing.

Recommendation          We recommend that the Manager, Oakland Operations Office:

                        1. Direct the Livermore Business Services Department, in
                           coordination with the Livermore Procurement and Material
                           Department, to reevaluate the “Attractive” item policy
                           consistent with the findings in this report at the next Attractive
                           Item Committee Meeting, and consider adding items such as
                           oscilloscopes, microscopes, videocassette recorders, fax
                           machines, and computer scanners to the “Attractive Property”
                           listing.

Management             The Manager, DOE Oakland Operations Office, did not concur
Comments               with this finding, stating in part that “The current DOE-OAK
                       [DOE Oakland Operations Office] approved LLNL [Livermore]
                       Attractive/’Sensitive’ Item policy is in accordance with
                       Department of Energy Property Management Regulations (DOE-
                       PMR), and thereby complies with applicable contract provisions.”
                       Management also stated that “Decisions of the committee are
                       submitted to the DOE-OAK Organizational Property Management
                       Officer for approval. This systematic and cost-benefit approach
                       allows LLNL to focus resources on 20% of the property items
                       which account for 80% of the value.”



Page 6                                                                 Details of Findings
______________________________________________________________________________
Inspector                          We conclude that items of Government property such as
Comments                           microscopes, oscilloscopes, videocassette recorders, and other
                                   similar property could fall within the intent of the requirement for
                                   sensitive property identification in accordance with the DOE
                                   Property Management Regulations. While it is true that the DOE
                                   Property Management Regulations state that “a list of personal
                                   property considered to be sensitive shall be developed and
                                   maintained by each DOE activity/site, taking into consideration
                                   value, cost of administration, need for control, and other factors
                                   that management determines should apply,” the exclusion of
                                   equipment that is easily converted to personal use calls into
                                   question the ability to control such property. In fact, the
                                   Livermore “Attractive Property” definition in the Technical
                                   Release Policy Manual states that an attractive item may cost as
                                   little as $300.

                                   We were told by Oakland Operations Office property management
                                   officials that the estimated annual cost for Livermore to maintain
                                   an attractive item with a property management number is $30.00.
                                   Considering the previously stated procurement cost for equipment
                                   procured by Livermore, this appears to be a small amount to pay
                                   considering the useful life of the items. For example, if one of the
                                   $4,780 microscopes was enrolled in the property number system,
                                   and was used for 10 years 3 , an inventory control cost of $300 4
                                   would be incurred, or about six percent of the procurement cost.

                                   As a result of management comments, we have modified our
                                   original recommendation by eliminating our reference to
                                   conformance with the management and operating contract and the
                                   DOE Property Management Regulations, and have focused on a
                                   reevaluation of the “Attractive Property” listing at the next
                                   Attractive Item Committee Meeting.

DOE Property                       In addition to the property numbers required for “sensitive”
Management                         property, the DOE Property Management Regulations state that
Regulations and DOE                personal property5 shall be marked as “U.S. Government Property”
Management and                     or alternatively “U.S. DOE.” Personal property is defined as
Operating Contract                 property of any kind, except real estate and Government
Property Marking                   owned permanent fixtures. The DOE management and
Requirements Are                   operating contract with the Regents of the University of
Not Consistently                   California for managing Livermore, states that the contractor
Implemented                        shall identify Government property coming into the contractor’s

3
  The useful life of laboratory equipment per the DOE Chief Financial Officer’s Accounting Handbook.
4
  In Fiscal Year 2001 dollars.
5
  Personal property which by its nature cannot be marked, such as stores items, metal stock, etc. is exempted from
this requirement.


Page 7                                                                                    Details of Findings
______________________________________________________________________________
                        possession or custody by marking and segregating in such a way,
                        satisfactory to the Contracting Officer, as shall indicate its
                        ownership by the Government. We were told that in accordance
                        with the Livermore Technical Release Policy Manual, it is the
                        responsibility of the TRR to place LLNL/U.S. Government
                        identification labels on personal property items purchased with
                        Livermore credit cards.

                        However, during interviews with TRRs from 8 of the 10
                        Livermore Directorates included as part of this inspection, it was
                        noted that many equipment items in their office areas were not
                        properly identified as LLNL/U.S. Government property.
                        Specifically, we interviewed 11 TRRs from 8 different Livermore
                        Directorates who did not have equipment items in their office areas
                        properly identified. Some examples of equipment not properly
                        identified include computer monitors, fax machines, copiers, an
                        electronic calculator, a paper shredder, a slide projector, and tools.
                        These employees said it was an oversight that these items were not
                        properly identified as U.S. Government property. There was,
                        however, one TRR we interviewed that had the proper U.S.
                        Government markings on all office equipment, and the employee
                        in this office area appeared to be properly identifying all property
                        procured.

                        The marking of property items in the possession of Livermore,
                        aside from being a contract requirement, serves to distinguish
                        Department of Energy property from that supplied by other U.S.
                        Government agencies, the University of California or private
                        industry partners. The marking of property items also aids security
                        personnel in identifying U.S. Government property in the event
                        such property is improperly removed from the Laboratory
                        premises.

                        Taken as a whole, we conclude that items of Government property
                        purchased by Livermore officials with credit cards are
                        inconsistently identified as Government property. As a result,
                        appropriate property protection measures in accordance with
                        contract requirements are not always followed. This situation is
                        particularly troubling considering the volume and dollar amount of
                        property purchased by TRRs, the fact that TRRs are specifically
                        charged with the responsibility of labeling Government property
                        that they purchase, and the fact that TRRs from 8 of 10 Livermore
                        directorates displayed similar weaknesses in their identification of
                        Government property.




Page 8                                                                 Details of Findings
______________________________________________________________________________


Recommendation          We recommend that the Manager, Oakland Operations Office:

                        2. Direct the Livermore Business Services Department in
                           coordination with the Livermore Procurement and Material
                           Department to ensure that: (1) all non-exempted personal
                           property procured with U.S. Government funds is identified as
                           Government property; and (2) internal controls are in place to
                           ensure conformance with this policy.


Management             Management concurred with this finding, stating that “DOE-OAK
Comments               will advise LLNL Property Management to work with
                       Procurement and Material Department personnel in order to ensure
                       the labeling of all non-consumable assets as Government
                       property.” Management stated that “DOE-OAK will advise LLNL
                       Property Management to establish a review of this process during
                       their annual self-assessment program,” and that “DOE-OAK will
                       monitor and ensure implementation through operational awareness
                       activities.”

Inspector              Management’s proposed action is responsive to this finding.
Comments               As a result of management comments, the recommendation was
                       modified to include the Livermore Business Services Department
                       in the recommended action.


Vendor Price            We found four instances where end of fiscal year funding
Manipulation            situations in August and September 1999 led to credit card
                        procurements that were only made possible by vendor price
                        manipulation of the GSA Contract price. This situation occurred
                        where a sales representative of a copier vendor adjusted the sales
                        price of four different copiers downward, while adjusting the cost
                        of copier document feeders sold in the same transaction upwards,
                        with the total sales price remaining the same.

                        As previously stated in this report, TRRs are limited to credit card
                        purchases of $5,000 per item, or $10,000 per transaction.
                        However, at the end of Fiscal Year 1999, four copiers were
                        purchased by Livermore employees in four separate transactions
                        where the $5,000 per line item limit was not exceeded as a result of
                        the vendor price manipulation.

                        In the first three instances, the vendor adjusted the GSA Contract
                        copier price from $6,231 down to $4,981, and increased the GSA
                        contract price for copier document feeders from $1,338 to $2,588,



Page 9                                                                Details of Findings
______________________________________________________________________________
                        while maintaining the same total sales price. In a related fourth
                        instance, the same vendor manipulated the price of a less
                        expensive copier in a similar manner. Specifically:
                                                                                   Actual
                        Purchased by    Purchase                  GSA Contract   Credit Card
                         Directorate     Date      Item              Price       Transaction

                        NAI             8/26/99    Copier             $6,231        $4,981
                                                   Document Feeder    $1,338        $2,588
                                                             Total:   $7,569        $7,569

                        Engineering     9/15/99    Copier             $6,231        $4,981
                                                   Document Feeder    $1,338        $2,588
                                                             Total:   $7,569        $7,569

                        Defense &
                        Nuclear Tech.   9/20/99    Copier             $6,231        $4,981
                                                   Document Feeder    $1,338        $2,588
                                                             Total:   $7,569        $7,569

                        Engineering     9/14/99    Copier             $5,122        $4,987
                                                   Document Feeder    $1,338        $1,473
                                                             Total:   $6,460        $6,460

                        The Livermore TRRs who made these purchases said they were
                        unaware of the GSA line item pricing for the copiers they
                        purchased, and that they were unaware that the copier pricing had
                        been adjusted. They said they contacted the copier vendor who
                        recommended a specific model of copier to them that would meet
                        their needs, and they told the vendor that their purchases would be
                        by Livermore credit card. They also said that, due to end of fiscal
                        year funding availability and time constraints, there was some
                        urgency to complete the copier purchases prior to
                        September 30, 1999, and that credit card procurement assured the
                        transactions would be completed in the required timeframe.

                        During an interview with the office supply company salesperson
                        who sold the copiers to the Livermore TRRs, the salesperson said
                        that she was aware that the TRRs had a $5,000 per line item and
                        $10,000 per transaction cost limitation. She said she understood
                        some customers at Livermore desired to buy copiers with end of
                        year funding, that completing the procurement actions in a timely
                        manner was an issue to concluding the sales, and resultantly, she
                        unilaterally adjusted the GSA pricing. She said that it was a
                        regrettable action on her part and would not happen again. She
                        said that revised sales invoices would be sent to the affected TRRs.
                        Despite the manipulations by the salesperson and the apparent lack
                        of involvement by the TRRs in this case, it should be noted that
                        Livermore TRRs are ultimately responsible for knowing the price
                        of GSA line items to avoid vendor price manipulation.


Page 10                                                               Details of Findings
______________________________________________________________________________


                        In addition, an inspection of each of these copiers revealed that
                        none of them had the required “U.S. Government” property
                        number identification label on them, and that two of the four did
                        not even have an LLNL/U.S. Government property label attached.

Recommendation          We recommend that the Manager, Oakland Operations Office:

                        3. Direct Live rmore Procurement and Material Department
                           officials to establish improved controls over end-of-fiscal-year
                           acquisitions to preclude the use of credit cards for purchases of
                           equipment or services that exceed the credit card cost
                           limitations for individual items or transactions.

Management             Management concurred with this finding, stating that “DOE-OAK
Comments               will advise LLNL Procurement and Material Department officials
                       to increase the frequency of credit card transaction reviews during
                       the last month of the fiscal year to ensure all purchasing activity is
                       appropriate and in accordance with applicable policies and
                       procedures.”

Inspector              Management’s proposed action is responsive to this finding.
Comments


Credit Card Payments    We found that a Livermore computer training office, under the
for Training            Computations Directorate, has made a practice of using a credit
                        card as the vehicle for payment for training courses. This has had
                        the effect of a sole source procurement action with an aggregate
                        value of $228,800, and in some instances, split orders.
                        Specifically, a review of 25 Fiscal Year 1999 transactions for
                        computer training classes found that these transactions were all
                        made to the same vendor name. Training classes provided by the
                        vendor included among others, Introduction to Excel,
                        Intermediate/Advanced Powerpoint, Windows 95/NT End User,
                        and Introduction to Adobe Photoshop.

Sole Source             We were told by a Livermore TRR that these training
Procurement of          transactions were not part of a BPA, or any other competitive
Training                procurement action. The TRR said that a BPA had been
                        established with the vendor from 1993 through 1997. However,
                        the contractual timeframe for the BPA had expired in September
                        1997, and the credit card payment method has been used with the
                        same vendor since that timeframe as a matter of convenience. The
                        TRR said that no competitive bids have been solicited from other
                        training companies. However, the TRR said the training office



Page 11                                                                Details of Findings
______________________________________________________________________________
                        continues to review computer training catalogues supplied by
                        potential vendors. We understand that sole source procurements
                        are appropriate in certain circumstances, but Livermore’s process,
                        in these instances, did not ensure that the most competitive training
                        was obtained.

Some Training           Of the 25 transactions during Fiscal Year 1999, $18,195 was paid
Payments Could Be       on February 25, 1999, in two transactions to the computer training
Split Orders            vendor. In this instance, the sums of $9,490 and $8,705 were paid
                        for computer training. Similarly, on April 30, 1999, the sum of
                        $25,735 was paid in three transactions to the same vendor on the
                        same day. The TRR said she is limited to $10,000 per transaction,
                        and that she tries to combine her payments for different classes to
                        equal as close to $10,000 as possible to minimize the number of
                        transactions. However, the Livermore TRR policy manual states
                        that multiple awards of similar items, issued within relative short
                        intervals, under the same account number, and the same requestor
                        and project application, is an example of a split order.

Recommendation          We recommend that the Manager, Oakland Operations Office:

                        4. Direct Livermore Procurement and Material Department
                           officials to review the circumstances regarding the credit card
                           procurement of $228,800 in training from the same vendor, and
                           evaluate the potential for competitively procuring training
                           services and avoiding sole source acquisitions or the splitting
                           of orders for such services.

Management             Management concurred with this finding, stating that “DOE-OAK
Comments               will advise LLNL Procurement and Material Department officials
                       to seek opportunities to competitively procure future training
                       requirements, as appropriate.”

Inspector              Management’s proposed action is responsive to this finding.
Comments


Acquisition Planning    Livermore TRRs purchased many common, non-consumable,
Opportunities           components from a variety of different vendors in Fiscal Year
                        1999. These components included items such as computer disk
                        drives, software, zip cartridges, modems, tape back-up units, and
                        recordable compact discs. For example, Livermore TRRs used
                        credit cards to procure 117 computer monitors in many small
                        quantity purchases from a variety of different vendors. Given that
                        our sample size was less than 20 percent of the total credit card
                        transactions processed in Fiscal Year 1999, more than 500



Page 12                                                                Details of Findings
______________________________________________________________________________
                        computer monitors could have been purchased in this timeframe.
                        During an interview with a Livermore procurement official, the
                        official said that there is no process in place to review commodities
                        purchased by credit card for inclusion as local stock items. The
                        official also said that, in the past, DOE had criticized Livermore
                        for having an excessive inventory with low stock turnover. The
                        official said that this has led Livermore to take action to reduce
                        inventory levels.

                        While the inclusion of items such as computer monitors as local
                        stock may not be desirable, the analysis of credit card purchasing
                        patterns to identify commonly purchased items may be
                        advantageous to secure better prices through quantity discounts
                        under competitive procurements.

Recommendation          We recommend that the Manager, Oakland Operations Office:

                        5. Direct Livermore Procurement and Material Department
                           officials to evaluate the potential for establishing a program
                           where credit card procurement histories will be analyzed in
                           order to forecast future need for common and frequently
                           purchased items so that competitive procurement actions for
                           such items can take advantage of quantity discounts.

Management             Management did not concur with this finding, stating that
Comments               “[Livermore] Procurement and Material manages an extensive
                       Shop Stock program at LLNL via some 120 satellite locations.
                       These miniature stock areas contain a variety of high-usage general
                       commodity items, including office supplies, general hardware, and
                       electrical materials. . . . Shop Stock provides Laboratory personnel
                       with easy access to value-priced common use materials,
                       eliminating potentially thousands of credit card transactions
                       annually. There are currently more than 100 blanket purchase
                       agreements in place at LLNL covering a wide variety of
                       commodities including computers, monitors, and peripherals.
                       LLNL has adopted commercial purchasing practices. The practice
                       of maintaining on-hand inventories of computers or monitors and
                       other like equipment is cost prohibitive and inefficient.”

Inspector              We understand management’s reluctance to stock items such as
Comments               computer monitors. However, the intent of raising this issue was
                       to focus on the use of credit card procurement histories to forecast
                       future need of common and frequently purchased items so that
                       reduced cost through quantity discounts can be achieved. We
                       conclude that through a process of analyzing procurement histories
                       and planning for the acquisition of these types of items, improved



Page 13                                                               Details of Findings
______________________________________________________________________________
                                   commodity pricing which is more advantageous to the
                                   Government 6 may be realized.

                                   As a result of management comments, we have modified our
                                   original recommendation by eliminating our reference to shelf
                                   stock, and refocused the recommendation to emphasize the
                                   potential for taking advantage of quantity discounts through
                                   competitive procurements.


Livermore Annual                   The Lawrence Livermore National Laboratory conducts an annual
Performance                        self-assessment of the attainment of performance objectives which
Appraisal                          result from Laboratory operations. This self-assessment serves as
                                   the principal means of providing input to the Laboratory
                                   performance appraisal process. It is through the self-assessment
                                   process that Livermore’s compliance with the performance
                                   objectives identified in their Management and Operating Contract
                                   under Section B, Appendix F, “Performance Objectives, Criteria,
                                   and Measures For Operations & Administration,” are evaluated.
                                   One of the elements of the self-assessment is Property
                                   Management.

                                   The overall Fiscal Year 1999 Livermore Property Management
                                   self-assessment rating was “outstanding.” The narrative
                                   accompanying this rating indicated that outstanding performance
                                   was achieved in organizational stewardship and personal
                                   accountability, coupled with physical inventory results that are
                                   “best-in-class.”

                                   Specifically, Property Management Performance Objective 4,
                                   “Information to Improve/Maintain Processes (Systems
                                   Evaluation)” states that “The Laboratory ensures that Property
                                   Management programs are consistent with policies and procedures
                                   approved by DOE.” The Performance Narrative for this objective
                                   states that “All points were achieved in the assessment areas of
                                   Property Management and Precious Metals Management.”

                                   However, as previously stated in this report, we found there is
                                   inconsistent identification of Government property purchased by
                                   Laboratory officials. As a result, many items (copiers, calculators,
                                   labeling machines, computer monitors, etc.) were not properly
                                   identified as Government property. As such, many property items
                                   procured by the Department of Energy are not readily
                                   distinguishable from those that could have been procured by other

6
  Federal Acquisition Regulation, Part 7.2 “Planning for the Purchase of Supplies in Economic Quantities” refers to
this type of process.


Page 14                                                                                   Details of Findings
______________________________________________________________________________
                        Government agencies, the University of California or even private
                        industry partners. In addition, security personnel are at a
                        disadvantage in identifying U.S. Government property in the event
                        that such property is improperly removed from the Laboratory
                        premises.

                        We could find no evidence that a system of internal controls exists
                        to ensure that items procured with Department of Energy funds are
                        properly identified as U. S. Government property. We conclude
                        that Livermore’s self-assessment of Objective 4.0 where a rating of
                        90 percent or outstanding for this performance objective was
                        scored, requires reevaluation.

Recommendation          We recommend that the Manager, Oakland Operations Office:

                        6. Direct the Livermore Business Services Department to
                           reevaluate the property management self-assessment
                           performance rating of “outstanding” for Fiscal Year 1999
                           consistent with the findings in this report, and ensure that the
                           issues identified in this report are addressed in any future self-
                           assessments.


Management             Management did not concur with this finding, stating that “This
Comments               office does not agree with the recommendation that the results of
                       the FY99 Self-Assessment of Property Management be
                       reevaluated.” Management stated that “The FY99 LLNL Property
                       Management self-assessment results are in accordance with the
                       FY99 Appendix F, Objective Standards of Performance established
                       for the Property Management functional area.” Management
                       stated that “The recommendation is based on the premise that the
                       Livermore attractive item determination is not broad enough so
                       therefore the results of the self-assessment are not accurate.”
                       Management stated that “This office does not agree with this
                       premise in that the DOE-OAK approved LLNL Attractive Item
                       definition is in accordance with Departmental guidelines and
                       contract requirements.” Management also states that “Objective 4
                       assesses performance consistent with the DOE approved LLNL
                       Attractive Item List.”

Inspector               The management comments for this finding do not address the fact
Comment                 that the DOE Property Management Regulations, as well as the
                        DOE Management and Operating Contract, require Livermore to
                        identify personal property coming into the contractor’s possession
                        as “U.S. Government Property.” While it is true that we have
                        concerns regarding the need to expand the types of items on the



Page 15                                                                 Details of Findings
______________________________________________________________________________
                        “Attractive” item listing, this issue was not the premise for the
                        recommendation. The premise for the recommendation was the
                        fact that Livermore rated itself as “outstanding” in the Property
                        Management area while 8 of 10 Livermore Directorates were
                        failing to consistently identify personal property as “U.S.
                        Government Property” as required by contract and the DOE
                        Property Management Regulations. We conclude that this
                        requirement is so fundamental to a quality property management
                        program, that non-compliance to the extent identified during this
                        inspection challenges the “outstanding” label.

                        As a result of management comments, the recommendation was
                        modified to include the Livermore Business Services Department
                        in the recommended action. In addition, we have modified our
                        original recommendation by eliminating references to the “Salary
                        Increase Authorization Multiplier” and the potential recovery of
                        funds.




Page 16                                                               Details of Findings
Appendix A
Scope and     We conducted a limited review of the policies and practices used
Methodology   by the Lawrence Livermore National laboratory in managing,
              administrating, and funding the Livermore Credit Card
              Procurement Program. In reviewing this program, we evaluated:

              1. The DOE Management and Operating Contract with the
                 Regents of the University of California for the management of
                 the Lawrence Livermore National Laboratory, Contract No.
                 W-7405-ENG-48, effective October 1, 1997.

              2. The Department of Energy Property Management Regulations,
                 41 Code of Federal Regulations, Chapter 109.

              3. The Lawrence Livermore National Laboratory Technical
                 Release Representative Policy Manual, dated June 1999.

              4. Fiscal Year 1999 Lawrence Livermore National Laboratory
                 credit card monthly review summaries, self-assessment
                 reviews, commercial procurement procedures, and Internal
                 Audit Reports.

              As part of our inspection, we evaluated a sample of 12,847 credit
              card transactions that were completed by Livermore TRRs in
              Fiscal Year 1999. The sample was constructed of two different
              components, where the first sample component that we evaluated
              was comprised of the top 1 percent of Fiscal Year 1999
              transactions sorted by transaction cost (3,644 entries). The second
              sample component we evaluated was comprised of all credit card
              transactions made by the largest individual user of procurement
              cards in each of five Livermore directorates (Biology and
              Biotechnology Research, Chemistry and Materials Science, Earth
              and Environmental Science, Lasers, and Physics and Space
              Technology). A total of 9,203 transactions were included in the
              second sample.

              As part of our review, the Office of Inspections obtained
              information at the Lawrence Livermore National Laboratory
              during March and April 2000.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 17                                                             Appendix A
                                                                     IG Report No. INS O-01-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
